1a
APPENDIX A
United States Court of Appeals
for the Eighth Circuit
No. 18-3613
Craig Eugene Smith
Plaintiff Appellant
v.
James McKinney; Kelly Holder; Leslie Wagers; Niki
Whitacre; Jonathan Janssen
Defendants Appellees
Appeal from United States District Court for the
Southern District of Iowa - Des Moines
Submitted: December 10, 2019
Filed: March 31, 2020
Before SMITH, Chief Judge, LOKEN and GRASZ,
Circuit Judges.
SMITH, Chief Judge.
Craig Eugene Smith brought suit under 42 U.S.C.

2a
1983 against prison officials with the Iowa Department of Corrections (IDC),1 alleging violation of his
due process rights in connection with discipline imposed on him. The prison officials moved for summary
judgment, and the district court2 granted the motion.
The district court determined that “no reasonable juror could conclude Smith suffered an atypical and significant deprivation in relation to the ordinary incidents of prison life”; as a result, Smith could not “show
he had a liberty interest at stake that required due
process protections.” Smith v. McKinney, No. 4:16CV-00646-RP-HCA, 2018 WL 10483966, at *4 (S.D.
Iowa Sept. 26, 2018). We affirm.
I. Background
In 1994, Smith was convicted of first-degree murder in Iowa state court and sentenced to life imprisonment. From April 4, 1995, to December 3, 2012,
Smith was incarcerated at the ISP, a maximum security facility. Smith was transferred to the FDCF, a
medium security facility, on December 4, 2012.
In May 2014, FDCF Captain Kelly Holder received
a complaint from confidential sources against Smith
Smith named as defendants then-Ford Dodge Correctional Facility (FDCF) Warden James McKinney; FDCF Captain Kelly
Holder; FDCF Correctional Officer Leslie Wagers; FDCF Correctional Officer Jonathan Janssen; and IDC Administrative Law
Judge (ALJ) Niki Whitacre. Smith also sued Iowa State Penitentiary (ISP) Warden Nick Ludwick; however, the court dismissed Ludwick as a defendant after a suggestion of death was
entered upon the record.

1

The Honorable Robert W. Pratt, United States District Judge
for the Southern District of Iowa.

2

3a
brought under the Prison Rape Elimination Act
(PREA).3 Holder notified Smith that he would be
placed in administrative segregation pending the investigation into Smith’s alleged inappropriate sexual
contact with other inmates.
Holder conducted an investigation into the complaint from May 28, 2014, through June 4, 2014. On
June 4, 2014, Holder wrote Smith a disciplinary notice for the alleged conduct. FDCF Correctional Officer Leslie Wagers approved the notice, and FDCF
Correctional Officer Jonathan Janssen served Smith
with the notice on June 12, 2014. Janssen also investigated the allegations set forth in the disciplinary notice. The notice was based on confidential information
from several sources.
Smith requested to speak with Correctional Counselor Stacy Mooney. On June 13, 2014, Smith spoke
with Mooney and denied the allegations. He also told
Mooney that “he would be willing to hurt an innocent
person.” Defs.’ App. to Mot. for Summ. J. at 75, Smith
v. McKinney, No. 4:16-cv-646-RP-HCA (S.D. Iowa Oct.
10, 2017), ECF No. 20-3.
On June 18, 2014, IDC ALJ Niki Whitacre conducted a hearing on the disciplinary notice. During
the hearing, Smith again denied the allegations. He
wanted to see the confidential information against
him. Whitacre denied his request. Smith responded
angrily. Whitacre found Smith guilty of several rule
violations. In support of her findings, Whitacre cited
the “[d]isciplinary notice dated 06/14/2014 written by
3

Holder was trained in conducting PREA investigations.

4a
Holder; confidential statements/investigation; ICON
[Iowa Corrections Offender Network] evidence; and
statements by Offender.” Id. at 76. She imposed a 365
days’ loss of earned time, imposed a year of disciplinary detention with credit for 27 days served, and recommended that the prison classification committee
transfer Smith back to the ISP for a more secure environment to protect other inmates and staff.
On July 11, 2014, consistent with the ALJ’s order,
IDC Offender Services transferred Smith back to the
ISP for security reasons. On arrival, he was placed in
segregation (otherwise known as “disciplinary detention” or the “hole”) to serve the remainder of his disciplinary detention. The “Request Comments” in the
“Offender Transfer to Institution” form set forth the
“[r]eason for transfer” as being “[b]ased on the nature
of the recent violations and Offender SMITH’s concerning threats of harming others (see generic note
dated 06/13/2014 [entered by Mooney]).” Id. at 79. The
form also set forth Smith’s lengthy disciplinary history. Upon Smith’s arrival to the ISP, he lost his job,
wages, security classification, security points, and inmate tier status. Smith appealed the decision.
On July 30, 2014, then-FDCF Warden James
McKinney denied Smith’s appeal. In the “Disciplinary
Appeal Response,” McKinney stated that he had read
the confidential information, visited with some of the
confidential informants, and found the confidential
informants credible. McKinney declined to reduce
Smith’s sanctions, stating, in part, “[Y]ou were
granted an opportunity to move to a medium custody
facility. You were immediately moved to the highest

5a
level at [FDCF] due to your past history at your previous facility.” Id. at 81. On September 14, 2014, thenISP Warden Nick Ludwick denied Smith’s supplemental appeal.
On October 9, 2014, Smith filed an action for postconviction relief in the Iowa District Court for Lee
County, challenging the PREA adjudication. The
state court granted Smith’s request for relief. The
court explained that when evidence is based on confidential information, the ALJ must prepare a contemporaneous summary of the confidential information
for the ICON. But the only summary from Whitacre
that the state court received was dated two years after Smith’s disciplinary hearing. Whitacre represented that she did not have the summary of confidential information. According to Whitacre, she did
not keep case information for more than two years
and had just purged her files. The state court found:
The record before the court is that the ALJ did
not prepare any type of independent documentation concerning the confidential information she relied upon until she was requested to do so in connection with this postconviction relief trial. The procedure requiring an ALJ to make a summary of confidential
information used by the ALJ contemporaneously to his or her decision-making did not
take place in this case.
Id. at 92. Whitacre’s failure to comply with the procedures resulted in the state court striking the confidential information from the record. “Without that confidential information,” the court explained, “there is

6a
not even ‘some evidence’ to support the disciplinary
allegations against [Smith].” Id. at 92–93. The state
court granted Smith’s application for postconviction
relief, ordered that Smith’s discipline records “reflect
that he was not found to have violated the rules as
identified in the disciplinary notice,” and assessed the
costs of the matter to the State of Iowa. Id. at 93. Because Smith “ha[d] already served the disciplinary detention,” the court could not order removal of the
sanction. Id.
Pursuant to the state court’s ruling, the IDC restored Smith’s 365 days of earned time and expunged
the report from his disciplinary record. But the IDC
did not transfer Smith back to the FDCF, a medium
security facility. Instead, he remains at the ISP, and
his former security classification, security points, and
tier status have not been restored. Smith also does not
have a job or earn wages as he had previously in
FDCF.
Smith brought suit under § 1983 against the IDC
prison officials, alleging that the prison officials violated his due process rights under the Fourteenth
Amendment by moving him indefinitely from the
FDCF, a medium security facility, to the ISP, a maximum security facility, based on a now-expunged disciplinary report. The prison officials moved for summary judgment, and the district court granted the motion. The district court determined that “no reasonable juror could conclude Smith suffered an atypical
and significant deprivation in relation to the ordinary
incidents of prison life”; as a result, Smith could not
“show he had a liberty interest at stake that required

7a
due process protections.” Smith, 2018 WL 10483966,
at *4.
II. Discussion
On appeal, Smith argues that the district court erroneously granted summary judgment to the prison
officials on his due process claim. He asserts that he
has a liberty interest protected by the Due Process
Clause of the Fourteenth Amendment in avoiding
prison conditions that are restrictive or extreme in
comparison to conditions at other prisons. According
to Smith, he suffered an atypical and significant hardship upon his transfer to the ISP. In support, he cites
(1) the indefinite duration of his confinement at the
ISP, a maximum security facility; and (2) the deprivation of his employment, wages, security classification,
security points, and inmate tier status upon his transfer to the ISP. In addition, he maintains that his 365day term in disciplinary detention subjected him to
conditions “substantially worse than [his] previous
environment.” Appellant’s Br. at 12. He asserts that
“[a] reasonable jury could have found on these facts
that Smith’s disciplinary detention and transfer to
the [ISP] imposed a deprivation that was an atypical
and significant hardship in relation to the ordinary
incidents of prison life.” Id. According to Smith, “the
decision to commit [him] to disciplinary detention and
transfer him in the first instance was based on a disciplinary allegation and report that has since been expunged because a court held that there was not even
‘some evidence’ that [he] violated the prison rules.” Id.

8a
We review de novo a district court’s grant of summary judgment. Atkinson v. City of Mountain View,
709 F.3d 1201, 1207 (8th Cir. 2013).
The Fourteenth Amendment’s Due Process
Clause protects persons against deprivations
of life, liberty, or property; and those who seek
to invoke its procedural protection must establish that one of these interests is at stake.
A liberty interest may arise from the Constitution itself, by reason of guarantees implicit
in the word liberty, or it may arise from an
expectation or interest created by state laws
or policies.
Wilkinson v. Austin, 545 U.S. 209, 221 (2005) (cleaned
up). “With regard to the latter, we focus on ‘the nature
of the deprivation’ resulting from a state regulation,
rather than ‘the language of a particular regulation.’”
Wilkerson v. Goodwin, 774 F.3d 845, 852 (5th Cir.
2014) (citing Sandin v. Conner, 515 U.S. 472, 481,
482–84 (1995); Wilkinson, 545 U.S. at 222–23).
“Once a liberty interest is established, the next
question is what process is due.” Williams v. Norris,
277 F. App’x 647, 649 (8th Cir. 2008) (per curiam) (citing Wilkinson, 545 U.S. at 224). “We need reach the
question of what process is due only if the inmates establish a constitutionally protected liberty interest . .
. .” Wilkinson, 545 U.S. at 221.
The Supreme Court has “held that the Constitution itself does not give rise to a liberty interest in
avoiding transfer to more adverse conditions of confinement.” Id. (citing Meachum v. Fano, 427 U.S. 215,
225 (1976)). An inmate “has no constitutional right to

9a
remain in a particular institution.” Askew v. Heflin,
67 F.3d 303, 303 (8th Cir. 1995) (unpublished per curiam). This is true even if the inmate was transferred
to “a higher-security institution [that] presented a
more restrictive environment than [the prior institution].” Freitas v. Ault, 109 F.3d 1335, 1337 (8th Cir.
1997) (citing Moorman v. Thalacker, 83 F.3d 970, 973
(8th Cir. 1996) (transfer from minimum- to mediumsecurity institution)). “In fact, prison administrators
may ordinarily transfer a prisoner for whatever reason or for no reason at all.” Cornell v. Woods, 69 F.3d
1383, 1387 (8th Cir. 1995) (cleaned up).4
But the Supreme Court “ha[s] also held . . . that a
liberty interest in avoiding particular conditions of
confinement may arise from state policies or regulations, subject to the important limitations set forth in
Sandin v. Conner, 515 U.S. 472, 115 S. Ct. 2293, 132
L. Ed. 2d 418 (1995).” Wilkinson, 545 U.S. at 222.
“Sandin involved prisoners’ claims to procedural due
process protection before placement in segregated
confinement for 30 days, imposed as discipline for disruptive behavior.” Id. The Supreme Court held that
inmates possess a state-created liberty interest in
avoiding assignment to conditions of confinement
that “impose[] atypical and significant hardship on
the inmate in relation to the ordinary incidents of
prison life.” Id. at 223 (quoting Sandin, 515 U.S. at
484). “[T]he nature of [the] conditions [of confinement] ‘in relation to the ordinary incidents of prison
“[T]hese precepts are limited by the prohibition against transferring a prisoner in retaliation for the inmate’s exercise of a constitutional right.” Id. at 1387.

4

10a
life’” is “the touchstone of the inquiry into the existence of a protected, state-created liberty interest in
avoiding restrictive conditions of confinement.” Id.
(quoting Sandin, 515 U.S. at 484). “Applying this refined inquiry, Sandin found no liberty interest protecting against a 30-day assignment to segregated
confinement because it did not ‘present a dramatic departure from the basic conditions of [the inmate’s]
sentence.’” Id. (alteration in original) (quoting
Sandin, 515 U.S. at 485). In reaching this determination, the Supreme Court noted the following: (1) “inmates in the general population experienced ‘significant amounts of “lockdown time”’”; (2) “the degree of
confinement in disciplinary segregation was not excessive”; and (3) “the short duration of segregation
[did not] work a major disruption in the inmate’s environment.” Id. (quoting Sandin, 515 U.S. at 486).
In summary, “[t]he Sandin standard requires [a
court] to determine if [the confinement] ‘imposes
atypical and significant hardship on the inmate in relation to the ordinary incidents of prison life.’” Id.
(quoting Sandin, 515 U.S. at 484); see also Phillips v.
Norris, 320 F.3d 844, 847 (8th Cir. 2003). “The duration and degree of restrictions bear on whether a
change in conditions imposes such a hardship.”
Hamner v. Burls, 937 F.3d 1171, 1180 (8th Cir. 2019),
as amended (Nov. 26, 2019).
The issue of whether conditions of confinement
constitute an atypical and significant hardship is a
question of law for the court to determine when the
facts are undisputed. See, e.g., Skinner v. Schriro, 399
F. App’x 223, 224 (9th Cir. 2010) (mem. op.) (“The dis-

11a
trict court properly granted summary judgment in defendants’ favor because Skinner failed to raise a triable issue of fact as to whether his placement in the
violence control unit constituted such an ‘atypical and
significant hardship . . . in relation to the ordinary incidents of prison life’ so as to give rise to a protected
liberty interest.” (alteration in original) (quoting
Sandin, 515 U.S. at 484)); Sealey v. Giltner, 197 F.3d
578, 585 (2d Cir. 1999); Beverati v. Smith, 120 F.3d
500, 503 (4th Cir. 1997) (explaining that the “atypical
and significant hardship” inquiry is “necessarily . . .
fact specific in that it requires a determination of the
conditions the prisoner maintains give rise to a liberty
interest and those incident to normal prison life” but
that “the ultimate determination of whether the conditions impose such an atypical and significant hardship that a liberty interest exists is a legal determination, subject to de novo review.”).5
In Portley El v. Brill, the inmate claimed “that the district court
erred in dismissing his due process claims under Sandin because
whether prison discipline ‘imposes atypical and significant hardship on the inmate in relation to the ordinary incidents of prison
life’ is a fact question unsuitable for resolution solely on the basis
of an inmate’s complaint.” 288 F.3d 1063, 1065 (8th Cir. 2002).
“We agree[d] that atypical and significant hardship is a question
of fact that may require a fuller record than the initial complaint.” Id. (emphasis added). But, we nevertheless found that
the inmate failed to “allege a liberty interest, did not describe
[the inmate’s] conditions of confinement in Minnesota punitive
segregation or Colorado administrative segregation, and did not
allege that those conditions were atypical and significant hardships in relation to the ordinary incidents of his prison life.” Id.
Because the inmate failed to “make a threshold showing that the
deprivation of which he complains imposed an ‘atypical and significant hardship,’” we held that the inmate’s “due process
5

12a
Post-Sandin, “the Court of Appeals have not
reached consistent conclusions for identifying the
baseline from which to measure what is atypical and
significant in any particular prison system.” Wilkinson, 545 U.S. at 223 (citing cases). The Supreme
Court has acknowledged “the difficulty of locating the
appropriate baseline” by which to measure what constitutes an atypical and significant hardship, but it
has not resolved the issue. Id. Instead, in Wilkinson,
the Supreme Court held that inmates’ assignment to
a state supermax prison “impose[d] an atypical and
significant hardship under any plausible baseline.”
Id. At the state supermax prison, the inmates were
prohibited from “almost all human contact . . . , even
to the point that conversation [was] not permitted
from cell to cell.” Id. at 223–24. In addition, “the light,
though it may be dimmed, [was] on for 24 hours.” Id.
at 224. And, the inmates were permitted only one
hour of exercise per day. Id. These conditions, the
Court recognized, “likely would apply to most solitary
confinement facilities,” “[s]ave perhaps for the especially severe limitations on all human contact.” Id.
But the Court identified “two added components.” Id.
claims were defectively pleaded.” Id. (first quoting Sims v. Artuz,
230 F.3d 14, 22 (2d Cir. 2000), then citing Howard v. Collins, 129
F.3d 121, 1997 WL 710314 (8th Cir. 1997) (unpublished per curiam); Hemphill v. Delo, 124 F.3d 208, 1997 WL 581072 (8th Cir.
1997) (unpublished per curiam)).
Portley El’s statement that “atypical and significant hardship is a question of fact” is not contrary to our recognition that
when the facts as to the conditions of confinement are undisputed on summary judgment, it is appropriate for the court to
decide the Sandin issue as a matter of law.

13a
The first additional component was the duration of
the placement. Id. “Unlike the 30-day placement in
segregated confinement at issue in Sandin, placement at [the state supermax facility] [was] indefinite
and, after an initial 30-day review, [was] reviewed
just annually.” Id. The second additional component
was “that placement disqualifies an otherwise eligible
inmate for parole consideration.” Id. “[T]aken together,” the Court held, these conditions “impose[d]
an atypical and significant hardship within the correctional context.” Id. Therefore, the Court concluded
that the inmates had “a liberty interest in avoiding
assignment to [the state supermax facility].” Id.
Despite the lack of an established “baseline from
which to measure what is atypical and significant in
any particular prison system,” id. at 223, we have affirmatively held what does not constitute an atypical
or significant deprivation. “We have consistently held
that a demotion to segregation, even without cause, is
not itself an atypical and significant hardship.” Phillips, 320 F.3d at 847; see also Portley El, 288 F.3d at
1065 (“We have consistently held that administrative
and disciplinary segregation are not atypical and significant hardships under Sandin.”). Indeed, “Sandin
teaches that [an inmate] has no due process claim
based on [a] somewhat more restrictive confinement
because he has no protected liberty interest in remaining in the general prison population; his only liberty interest is in not being subjected to ‘atypical’ conditions of confinement.” Wycoff v. Nichols, 94 F.3d
1187, 1190 (8th Cir. 1996).
As a result, “to assert a liberty interest,” the inmate “must show some difference between his new

14a
conditions in segregation and the conditions in the
general population which amounts to an atypical and
significant hardship.” Phillips, 320 F.3d at 847; see
also Moorman, 83 F.3d at 973 (concluding that the inmate’s “detention appear[ed] no more severe than
that in Sandin” and did “not appear to have been a
disruption exceeding the ordinary incidents of prison
life”).
For example, in Kennedy v. Blankenship, the inmate was “found . . . guilty of violating prison rules
and sentenced . . . to thirty days in ‘punitive isolation,’
a stricter form of custody than the ‘administrative
segregation’ status [the inmate] had at the time.” 100
F.3d 640, 641 (8th Cir. 1996). We held that the inmate’s due process rights were not violated even
though the inmate “lost more privileges as a result of
his punishment than did the inmate in Sandin.” Id.
at 642. Specifically, the inmate lost “the privilege of
working and the accompanying good time credits”
while in punitive isolation. Id. at 642 n.2. And, while
in punitive isolation, the inmate “face[d] restrictions
on mail and telephone privileges (privileged mail and
emergency calls only), visitation privileges (the inmate’s attorney only, rather than biweekly general
visitation), commissary privileges, and personal possessions (legal materials, a religious text, soap, toothbrush, toothpaste, washcloth, and toilet paper only).”
Id. Although inmates “referr[ed] to punitive isolation
as ‘the hole,’” we found it “abundantly clear that that
description is a significant exaggeration of actual conditions.” Id. “Considering all the circumstances, we
conclude[d] that [the inmate’s] transfer from administrative segregation to punitive isolation was not ‘a

15a
dramatic departure from the basic conditions’ of his
confinement and thus [did] not constitute ‘the type of
atypical, significant deprivation in which a state
might conceivably create a liberty interest.’” Id. at 643
(quoting Sandin, 515 U.S. at 485–86).
Similarly, in Freitas, the analysis focused on
“whether the conditions of [the inmate’s] confinement
after [the inmate’s] transfer [from a minimum security facility to a medium security facility] constituted
a hardship that could reasonably be characterized as
atypical and significant.” 109 F.3d at 1337 (internal
quotation omitted). We held that Freitas’s conditions
of confinement did not meet that standard. We reasoned that even though the inmate was transferred to
“a higher-security institution [that] presented a more
restrictive environment . . . , there [was] no liberty interest in assignment to any particular prison.” Id. We
further noted that the inmate had previously been
housed at the medium security facility before coming
to the minimum-security facility. Id. at 1336. As a result, “[w]e fail[ed] to understand . . . why a return to
an institution previously inhabited by an inmate
whose custody rating matches that of the institution
can be a departure from the ordinary incidents of
prison life.” Id. at 1338. We determined that the inmate’s “ten days of administrative segregation . . . and
. . . thirty days of ‘on-call’ status” were not “‘atypical
and significant’ deprivations.” Id. Finally, we held
that the inmate’s “loss of a higher-paying job and
other privileges” and his “lost ability to earn good time
(when no previously earned bonus time had been revoked and the loss evidently had no other practical

16a
effect on [the inmate’s] sentence)” did not amount to
“an atypical hardship.” Id.
In the present case, Smith argues that the conditions of confinement he endured while in segregation
and upon his transfer to the ISP imposed an atypical
and significant hardship on him in relation to the ordinary incidents of prison life. First, he cites as an
atypical and significant hardship his transfer from
the FDCF, a medium security facility, back to the ISP,
a maximum security facility, for an indefinite duration. According to Smith, he “has been in the maximum security facility for nearly five years, and there
is no sign that he will be moved to a less restrictive
prison anytime soon.” Appellant’s Br. at 17. “Although
[ISP] was a higher-security institution . . . , there is
no liberty interest in assignment to any particular
prison.” Freitas, 109 F.3d at 1337. Moreover, Smith
was returning to an institution that he previously inhabited. See id. at 1338 (“We fail to understand, moreover, why a return to an institution previously inhabited by an inmate whose custody rating matches that
of the institution can be a departure from the ordinary
incidents of prison life.”).
Because the transfer to a higher security facility
alone is insufficient to establish an atypical and significant hardship, we must examine “whether the
conditions of [Smith’s] confinement [in administrative
segregation at the FDCF and] after his transfer [to
the ISP] constituted a hardship that could reasonably
be characterized as atypical and significant.” Id. at
1337 (internal quotation omitted). As an initial matter, Smith notes that he was subjected to 365 days of

17a
disciplinary detention. He was first placed in administrative segregation while at the FDCF and then
placed in disciplinary detention, otherwise known as
“the hole,” upon his arrival to the ISP. But Smith has
failed to set forth facts describing his conditions of
confinement while in administrative segregation and
disciplinary detention. Smith’s reference to disciplinary detention as “the hole” is not descriptive of what
conditions he faced. Cf. Blankenship, 100 F.3d at 641
n.2 (“[A]lthough prisoners in Arkansas apparently refer to punitive isolation as ‘the hole,’ it is abundantly
clear that that description is a significant exaggeration of actual conditions.”). Without a description of
the conditions of confinement while in segregation, we
are left with our precedent “that demotion to segregation, even without cause, is not itself an atypical and
significant hardship.” Phillips, 320 F.3d at 847.
Smith also cites his loss of employment, wages, security classification, security points, and inmate tier
status upon his transfer to the ISP. But none of these
losses, individually or collectively, amounts to an
atypical and significant hardship under our precedent. See, e.g., Freitas, 109 F.3d at 1338 (concluding
that inmate’s “loss of a higher-paying job and other
privilege” did not “constitute[] an atypical hardship”);
Blankenship, 100 F.3d at 642 n.2 (concluding that inmate’s loss of “the privilege of working and the accompanying good time credits” while in punitive isolation
did not constitute an atypical hardship).
Because we hold that the conditions of confinement that Smith faced during administrative segregation at the FDCF and upon his transfer to the ISP

18a
do not amount to an atypical and significant deprivation when compared to the ordinary incidents of
prison life, we affirm the district court’s grant of summary judgment to the prison officials on Smith’s due
process claim.
III. Conclusion
Accordingly, we affirm the judgment of the district
court.

19a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
CENTRAL DIVISION
CRAIG EUGENE
SMITH, #0802783,
Plaintiff,
vs.
JAMES McKINNEY, et
al.,
Defendants.

4:16-cv-00646-RP-HCA
ORDER DISMISSING
DEFENDANT LUDWICK AND GRANTING MOTION FOR
SUMMARY JUDGMENT

Plaintiff Craig Eugene Smith, now represented
by counsel, brings this action under 42 U.S.C. §
1983. Amended Compl., ECF No. 16. Smith names
as Defendants Nick Ludwick, James McKinney,
Kelly Holder, Leslie Wagers, Niki Whitacre, and
Jonathon Janssen. Smith claims Defendants violated his due process rights in connection with discipline imposed on him at the Fort Dodge Correctional Facility (FDCF). He seeks declaratory relief
and damages. He also seeks expungement of all reports and notes received while he served the sanction be expunged. Id. at 3–9.
Defendants entered a suggestion of death upon
the record for Defendant Nick Ludwick and ask that
he be removed as a party. Suggestion of Death, ECF
No. 38 (filing pursuant to Fed. R. Civ. P. 25). Plaintiff filed no objection. The Court will therefore dismiss Nick Ludwick as a Defendant in this case.

20a
The remaining Defendants move for summary
judgment, which Plaintiff resists.1 ECF Nos. 20, 35,
39. For the following reasons, the Court must grant
Defendants’ motion.
I. SUMMARY JUDGMENT STANDARD
The Court will grant summary judgment if,
viewing the evidence in the light most favorable to
the nonmoving party, “no genuine dispute as to any
material fact and the moving party is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
“The non-moving party receives the benefit of all
reasonable inferences supported by the evidence,
but has ‘the obligation to come forward with specific
facts showing that there is a genuine issue for
trial.’” Atkison v. City of Mt. View, 709 F.3d 1201,
1207 (8th Cir. 2013) (quoting Dahl v. Rice Cnty., 621
F.3d 740, 743 (8th Cir. 2010)).
To avoid entry of summary judgment, the nonmovant must make a sufficient showing on every essential element of its case for which it has the burden of proof at trial. Celotex Corp. v. Catrett, 477
U.S. 317, 322-23 (1986). To show a fact is genuinely
disputed, a party must support the assertion by:

Smith’s appendix to his resistance includes many documents
that already were in Defendants’ appendix. Under Local Rules,
Smith should have included only materials that were not already
submitted in Defendants’ appendix. “The resisting party’s appendix must include those parts of the pleadings, depositions,
answers to interrogatories, admissions, exhibits, and affidavits
not already included in the moving party’s appendix upon which
the resisting party relies in resisting the motion.” LR 56(e).

1

21a
(A) citing to particular parts of materials in
the record, including depositions, documents, electronically stored information, affidavits or declarations, stipulations (including those made for purposes of the motion only), admissions, interrogatory answers, or other materials; or (B) showing
that the materials cited do not establish the
absence or presence of a genuine dispute, or
that an adverse party cannot produce admissible evidence to support the fact.
Fed. R. Civ. P. 56(c)(1)(A) & (B). The quantum of
proof the nonmoving party must produce is not precisely measurable, but it must be enough evidence
“such that a reasonable jury could return a verdict
for the nonmovant.” Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986); see also Matsushita Elec.
Indus. Co., Ltd. v. Zenith Radio Corp., 475 U.S. 574,
586 (1986) (“opponent must do more than simply
show that there is some metaphysical doubt as to
the material facts”); Williams v. City of Carl Junction, 480 F.3d 871, 873 (8th Cir. 2007) (“The nonmoving party must present more than a scintilla of
evidence and must advance specific facts to create a
genuine issue of material fact or trial.”) (internal
quotations omitted)).
All evidence must be viewed in the light most favorable to the nonmoving party, and all reasonable
inferences must be drawn in the nonmoving party’s
favor. Grant v. City of Blytheville, 841 F.3d 767, 770
(8th Cir. 2016).

22a
II. SUMMARY OF MATERIAL FACTS
During the time relevant to the complaint, Smith
was an inmate at the Fort Dodge Correctional Facility and Defendants were employees there. In
2014, Defendant Kelly Holder, gave Smith notice
that he was being placed in administrative segregation and investigated for inappropriate contact with
another inmate. Defs.’ Ex. G, ECF No. 20–3 at 73.
Holder then wrote Smith a disciplinary report for
violating prison disciplinary rules against threats
and intimidation, sexual misconduct, obstructive/disruptive conduct, sexual violence, and attempt or complicity. The report was based on confidential statements, and the names of inmates and
the statements were kept confidential. Defendant
Leslie Wagers approved the report. Defs.’ Ex. F,
ECF No. 20–3 at 72. Defendant Jonathan Janssen
served Smith notice of the disciplinary report. Id.
Janssen also investigated the violations. Defs.’ Ex.
H, ECF No. 20–3 at 74.
Smith has been an inmate of the Iowa Department of Corrections since 1994. Defs.’ Ex. B, ECF
No. 20–3 at 4. He has lived at various places, including the Iowa State Penitentiary and the Fort Dodge
Correctional Facility. Id. Except for the incident in
2014, Smith never was disciplined for sexually harassing or assaulting other inmates. Defs.’ Ex. C,
ECF No. 20–3 at 5–8. After receiving notice of the
alleged sexual misconduct against inmates in 2014,
Smith became upset while speaking with his counselor stating, among other things, he did not do the
alleged acts and never would. Defs.’ Ex. I, ECF No.
20–3 at 75.

23a
Defendant Niki Whitacre, the Administrative
Law Judge, conducted a hearing on the disciplinary
notice. Defs.’ Ex. J, ECF No. 20–3 at 76–77. During
the hearing, Smith asked to see the witness statements and became angry after he was denied. Id. at
76. Whitacre she determined Smith violated all the
rules charged except attempt or complicity. Id. For
the evidence relied on, Whitacre cited the disciplinary notice, “confidential statements/investigation;
ICON evidence; and statements by the Offender.”
Id. She imposed a year of loss of earned time, a year
of disciplinary detention with credit for twentyseven days served, recommendation that Smith be
transferred “back to [Iowa State Penitentiary] for a
more secured environment in order to protect staff
and offenders from victimization.” Id. at 77.
Smith appealed. Defendant Warden Jim McKinney denied the appeal. Defs.’ Ex. M, ECF No. 20–3
at 81–82. McKinney wrote, “I have read and visited
with some of these confidential informants as well
as some other offenders that lived in the same living
unit as you. . . . The informants did clearly prove to
be credible and reliable.” Id. at 81.
Smith was transferred to the Iowa State Penitentiary. Defs.’ Ex. L, ECF No. 20–3 at 79–80. Nick
Ludwick, who was then Warden at the Iowa State
Penitentiary, denied Smith’s supplemental appeal.
Defs.’ Ex. O, ECF No. 20–3 at 84.
Smith filed an action for postconviction relief in
the Iowa District Court for Lee County. Defs.’ Ex. P,
ECF No. 20–3 at 85–88. The Iowa District Court
granted Smith’s request for relief. Defs.’ Ex. Q, ECF

24a
No. 20–3 at 89–93. The state court held the discipline must be based on “some evidence.” Id. at 91
(citations omitted). The state court held that when
the evidence is based on confidential information,
the administrative law judge must prepare a contemporaneous summary of the confidential information for the Iowa Corrections Offender Network
(ICON). Id. at 91–92; see also Defs.’ Ex. E, ECF No.
20–3 at 35–36 (describing the procedures for use of
confidential information). The only summary the
state court received was a summary from Whitacre
dated two years after Smith’s disciplinary hearing.
ECF No. 20–3 at 92; Defs.’s Ex. R, ECF No. 20–3 at
94–95. According to Whitacre, she did not have the
summary of confidential information but had just
purged her files because she did not keep case information for more than two years. ECF No. 20–3 at
94. The state court found:
The record before the court is that the ALJ
did not prepare any type of independent documentation concerning the confidential information she relied upon until she was requested to do so in connection with this postconviction relief trial. The procedure requiring an ALJ to make a summary of confidential information used by the ALJ contemporaneously to his or her decision-making did
not take place in this case.
ECF No. 20–3 at 92. The state court ruled that
Whitacre’s failure to comply with the procedures required it to strike the confidential information from
the record. It ruled, “Without that confidential in-

25a
formation, there is not even ‘some evidence’ to support the disciplinary allegations against” Smith. Id.
at 92–93. The state court therefore granted Smith’s
request for postconviction relief and ordered that
the disciplinary record reflect that Smith was found
not to have violated the rules. Because Smith already served the disciplinary detention imposed, it
held “that sanction cannot be removed.” Id. at 93.
As a result of the report, Smith lost his job and
wages. Defs.’ Ex. T, ECF No. 20–3 at 98–106. He remains at Iowa State Penitentiary, where he has
been denied his former security classification, security points, and tier status. Id. at 99.
III. DISCUSSION
The Fourteenth Amendment prohibits a state
from depriving “any person of life, liberty, or property, without due process of law.” U.S. Const.
amend. XIV. When a person asserts the deprivation
of liberty without due process, the court first determines whether a protected liberty interest is at
stake. See Wilkinson v. Austin, 545 U.S. 209, 221
(2005). Smith acknowledges he did not have a liberty interest in having state officers follow their
own prison regulations. ECF No. 35–1 at 6; see Phillips v. Norris, 320 F.3d 844, 847 (8th Cir. 2003).
Smith also did not have a right to have a job, or be
housed in any particular custody level or classification. See Moody v. Daggett, 429 U.S. 78, 88 n.9
(1976) (Constitution itself does not confer any right
upon an inmate to any particular security classification); Meachum v. Fano, 427 U.S. 215, 225 (1976)
(“Confinement in any of the State’s institutions is

26a
within the normal limits or range of custody which
the conviction has authorized the State to impose.”);
see also Freitas v. Ault, 109 F.3d 1335, 1337 (8th Cir.
1997) (“there is no liberty interest in assignment to
any particular prison”); Lomholt v. Holder, 287 F.3d
683, 684 (8th Cir. 2002) (per curiam) (prisoner has
“no constitutional right to a particular prison job”).
To determine whether Smith has a liberty interest in avoiding particular conditions, the Court considers whether the deprivations imposed on Smith
were “atypical and significant hardship on [him] in
relation to the ordinary incidents of prison life.”
Sandin v. Conner, 515 U.S. 472, 484 (1995). It is
“the nature of those conditions themselves ‘in relation to the ordinary incidents of prison life’” that determine whether state officials must provide due
process protections before imposing them. Wilkinson, 545 U.S. at 223 (quoting Sandin, 515 U.S.
at 484).
Defendants argue Smith suffered no atypical
and significant deprivation, therefore he had no liberty interest at stake that required due process protections. ECF No. 20–1 at 4–5. In response, Smith
relies on Wilkinson to argue there is a jury question
whether his own deprivation was atypical and significant. ECF No. 35–1 at 7–8. In Wilkinson, the Supreme Court held the inmate had a liberty interest
in avoiding transfer to an Ohio supermax prison.
Wilkinson, 454 U.S. at 224. The Supreme Court did
not identify a baseline for what would be atypical
and significant deprivation, but it held the inmate’s
“assignment to OSP imposes an atypical and significant hardship under any plausible baseline.” Id. at

27a
223. It described in detail the conditions that made
assignment to the supermax facility an atypical and
significant deprivation:
For an inmate placed in OSP, almost all human contact is prohibited, even to the point
that conversation is not permitted from cell
to cell; the light, though it may be dimmed,
is on for 24 hours; exercise is for 1 hour per
day, but only in a small indoor room. Save
perhaps for the especially severe limitations
on all human contact, these conditions likely
would apply to most solitary confinement facilities, but here there are two added components. First is the duration. Unlike the 30day placement in Sandin, placement at OSP
is indefinite and, after an initial 30-day review, is reviewed just annually. Second is
that placement disqualifies an otherwise eligible inmate for parole consideration. While
any of these conditions standing alone might
not be sufficient to create a liberty interest,
taken together they impose an atypical and
significant hardship within the correctional
context. It follows that respondents have a
liberty interest in avoiding assignment to
OSP.
Id. at 223–24 (citations omitted); see also id. at 214–
15 (describing the conditions at the supermax
prison compared to other Ohio prisons). Granting
that Wilkinson does not describe the floor for what
constitutes an atypical and significant deprivation,
the Court nevertheless concludes there is not a genuine issue for trial on this record. The problem for

28a
Smith is he does not describe the sort of deprivations that, either alone or in aggregate, might be
considered an atypical and significant deprivation
in relation to the ordinary incidents of prison life.
Smith states he was sent from a medium security
institution to a maximum security institution, but,
unlike the description in Wilkinson, Smith provides
no details about what life is like at either institution. ECF No. 35–1 at 8. Smith served a year of disciplinary detention, which is significantly longer
than the thirty days imposed in Sandin, 515 U.S. at
486. Yet Smith provides no facts describing how the
detention he served differs from other types of confinement. Along with the length of the duration of
the sanction, another reason the Court in Sandin
concluded the sanction did not give rise to a liberty
interest is it “mirrored those conditions imposed
upon inmates in administrative segregation and
protective custody.” Id. Without a comparison between inmates inside and outside of segregation or
other “totally discretionary[] confinement,” it is not
possible for the Court to conclude Smith creates a
genuine dispute that his placement in segregation
for even a year “work[ed] a major disruption in his
environment.” Id. Smith states he lost security
points and tier status, but the record is quiet on the
difference in living conditions for inmates at those
different security and tier statuses.
At the summary judgment stage, to create a jury
question Smith must do more than identify deprivations without putting them into factual context.
Based on this summary judgment record, no reasonable juror could conclude Smith suffered an atypical

29a
and significant deprivation in relation to the ordinary incidents of prison life. Smith therefore cannot
show he had a liberty interest at stake that required
due process protections. Consequently, Defendants
are entitled to judgment as a matter of law, and the
Court must grant their motion for summary judgment.2
IV. CONCLUSION
Based on the suggestion of death on the record,
ECF No. 38, Defendant Nick Ludwick is dismissed
from the case. The Court grants Defendants’ motion
for summary judgment. ECF No. 20. Judgment
shall be entered in favor of the remaining Defendants. This case is dismissed.
IT IS SO ORDERED.
Dated this

26th

day of September, 2018.

/s/ Robert W. Pratt
Robert W. Pratt
U.S. District Judge

Because the Court must grant Defendants’ motion for summary
judgment based on Smith’s failure to create a genuine question
whether a liberty interest is at stake, the Court does not address
Defendants’ other grounds for summary judgment.

2

30a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 18-3613
Craig Eugene Smith
Appellant
v.
James McKinney, et al.
Appellees
Appeal from U.S. District Court for the Southern
District of Iowa - Des Moines
(4:16-cv-00646-RP)
ORDER
The petition for rehearing en banc is denied.
The petition for rehearing by the panel is also denied.
May 26, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

31a
APPENDIX D
IN THE IOWA DISTRICT COURT FOR LEE
COUNTY (NORTH)
CRAIG SMITH,
Applicant,

Cause No. PCLA
006326

vs.
STATE OF IOWA,
Respondent.

RULING ON APPLICATION FOR POSTCONVICTION RELIEF

The Applicant filed his Application for Postconviction Relief on October 9, 2014. Said application
proceeded to trial at the Iowa State Penitentiary on
May 24, 2016. The Applicant appeared as a selfrepresented litigant at the hearing; the Respondent
was represented by Assistant Attorney General
John McCormally. The court heard the testimony
of the Applicant. In addition, the court received into
evidence State’s Exhibit 1, administrative record.
The State also offered Exhibit 2, confidential information utilized by the Administrative Law Judge.
Said confidential information was not available at
the time of the hearing. The record was left open
for the State to submit said confidential record. The
court received the confidential record marked as Exhibit 2, plus CI-1, comments from the ALJ. The
court also at a later date received Exhibit 2-2, Policies and Procedures 10-RD-03; Exhibit 3, PREA
Standards for Adult Prisons and Jails; and Applicant’s Exhibit A, a portion of the PREA Standards.

32a
The court further heard the statements and comments of the Applicant and the Assistant Attorney
General.
COURSE OF PROCEEDINGS AND FINDINGS
OF FACT
1. On June 4, 2014, a disciplinary notice was issued, which was served upon the Applicant on June
12, 2014. At the time the Applicant was an inmate
at the Ft. Dodge Correctional Facility in Webster
County, Iowa. It was alleged that while incarcerated
at the Ft. Dodge Correctional Facility, the Applicant
had violated Disciplinary Rules 14, Threats/Intimidation; 15, Sexual Misconduct; 27, Obstructive/Disruptive Conduct; 41, Sexual Violence; and 43, Attempt or Complicity.
2. The disciplinary notice was issued based
upon confidential complaints that the Applicant
was sexually abusive to offenders.
3. A hearing w.as held before the ALJ on June
24, 2014. The ALJ based her decision upon the disciplinary notice, the statements of the offender, and
the confidential statements and investigation materials. She found the Applicant to have violated
Rules 14, Threats/Intimidation; 15, Sexual Misconduct; 27, Obstructive/Disruptive Conduct; and 41,
Sexual Violence. The sanction imposed was 365
days of disciplinary detention and 365 days’ loss of
earned time.
4. The Applicant appealed this decision to the
warden. By the time the appeal was processed, the
Applicant had been transferred to the Iowa State

33a
Penitentiary in Lee County. As a result, the ISP
warden denied the appeal on September 14, 2014.
Having exhausted his administrative remedies, the
Applicant filed this postconviction relief action on
October 9, 2014.
CONCLUSIONS OF LAW
During the hearing, the Applicant’s primary
challenge to the discipline was that he did not commit the alleged violations. In addition, he also asserted that the policies concerning the use of confidential information were not followed. In his written appeal to the warden, the Applicant also stated
that the proper standards were not followed in determining the credibility of the confidential informants. In a supplement to his appeal on August 1,
2014, the Applicant mere1y reiterated his earlier·
challenge.
In this situation the entire case and set of allegations against the Applicant is based upon confidential information. The disciplinary notice itself is
based upon a confidential informant’s complaint.
The Investigator had no independent information
besides the confidential information. The statements made by the Applicant during the hearing
which the ALJ relied upon were not incriminating.
As a result, in order for this discipline to be sustained, the confidential information used must constitute “some evidence.” Backstorm v. State, 508
N.W.2d 705, 710 (Iowa 1993), citing Superintendent
v. Hills, 472 U.S. 445, 455 (1985). In addition, the
confidential information procedures must have been
property followed. If for any reason the confidential

34a
information portion of this investigation is eliminated, there is no other evidence to reach the level
of “some evidence” to support the ALJ’s decision.
State’s Exhibit 2-2 is the DOC Policies & Procedures for Major Discipline Report Procedures, Policy No. IO-RD-03. Rule IV(D)(12) and (13) provide:
(12) Where confidential information is involved, the ALJ shall view the evidence
prior to meeting with the accused offender.
(13) The ALJ shall make findings after
meeting with the offender in accordance
with the procedures for the use of confidential information described below if the ALJ
uses or relies on the confidential information.
Rule IV(F) sets forth the procedures for the use
of confidential information, included in these procedures is a requirement that whenever confidential
information is used, the ALJ is to prepare a summary on ICON. The summary will not be disclosed
to the offender and shall include the following specific information:
(a) brief summaries of all confidential information availab1e to the ALJ;
(b) either the name or relationship to the
institution of any informants;
(c) the confidential information relied upon
by the ALJ;
(d) the reasons supporting use of confidential information;

35a
(e) an indication why the information is being kept from the offender.
The court received Exhibit C-I-1, a confidential
summary statement, from the ALJ dated July 18,
2016. Based upon this document, it is clear that the
ALJ did not prepare a summary as required by the
Policies & Procedures1. The record before the court
is that the ALJ did not prepare any type of independent documentation concerning the confidential
information she relied upon until she was requested
to do so in connection with this postconviction relief
trial. The procedure requiring an ALJ to make a
summary of the confidential information used by
the ALJ contemporaneously to his or her decisionmaking did not take place in this case. As a result,
the court concludes that the failure to comply with
the procedures for the use of confidential information requires this court to strike from the factual
record said confidential information. Without that
confidential information, there is not even “some evidence” to support the disciplinary allegations
against the Applicant. The court must therefore
grant the applicant’s request for postconviction relief.
Exhibit 2-2 submitted by the State includes the DOC Policies
& Procedures effective in December, 2014. The discipline in this
case occurred prior to that. As a result, Exhibit 2-2 would not
show the policies and procedures applicable to this case. Because
of the court hearing several disciplinary proceedings on May 24,
2016, the court had available to it the actual Policies & Procedures in effect in June of 2014. The Policies & Procedures concerning the use of confidential information are identical in the
two Policies & Procedures.

1

36a
ORDER
IT IS THEREFORE ORDERED that the Applicant’s Application for Postconviction Relief is
granted.
IT IS FURTHER ORDERED that the discipline
records of the Applicant shall reflect that he was not
found to have violated the rules as identified in the
disciplinary notice issued on June 4, 2014. The Applicant has already served the disciplinary detention. As a result, that sanction cannot be removed.
IT IS FURTHER ORDERED that the costs of
this matter are assessed to the State.
Dated this 31st day of August, 2016.
/s/ Mary Ann Brown
Mary Ann Brown
Judge, Eighth Judicial District of Iowa

